March 4, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Via electronic submission
Re:

No. 20-828; Yassir Fazaga, et al. v. Federal Bureau of Investigations, et al.

Dear Mr. Harris,
I am counsel for Respondents Yassir Fazaga, Ali Malik, and Yasser AbdelRahim in the
above-captioned case. I write to request a 30-day extension of the deadline to file Respondents’
brief in opposition to the petition for writ of certiorari, from March 22, 2021 to April 21, 2021.
This is Respondents’ second request for an extension. The Government does not oppose this
request.
Respondents seek this extension due to additional professional obligations that have
made response by March 22 difficult. First, lead undersigned counsel transitioned employment
this month from the ACLU of Southern California to a faculty position at the UCLA School of
Law. The transition has temporarily interrupted his litigation capacity and introduced additional
administrative demands through the end of March.
Second, Respondents’ counsel continues to work on a number of additional cases that
require significant expenditure of time beyond that which was provided by the first extension. In
particular, counsel’s summary judgment briefing in Phillips et al. v. U.S. Customs and Border
Protection, No. 2:19-cv-06338-SVW-JEM (C.D. Ca. filed July 23, 2019), a complex multi-party
constitutional rights case in the Central District of California, is due on March 29, 2021 with a
hearing set for April 26, 2021.
For these reasons, Respondents respectfully request an additional 30-day extension to
respond to the Government’s petition. Thank you for your attention to this matter.
Sincerely yours,

Ahilan Arulanantham
Counsel for Respondents

•

•

•

•

•

Page 2
PROOF OF SERVICE
I am employed in the County of Los Angeles, State of California. I am over the age of 18
and not a party to the within action. My business address is 1313 West Eighth Street, Los
Angeles, California 90017. I am employed in the office of a member of the bar of this court at
whose direction the service was made.
On March 4, 2021, transmitted the foregoing document to be mailed by Nationwide
Legal, LLC via first-class mail to the recipients listed on the below service list. All parties were
also served via email at the below addresses.

Party
Attorney/Address Served
Federal Bureau of Investigation, et al.: Elizabeth Prelogar
Petitioners
Acting Solicitor General
Department of Justice, Room 5616
950 Pennsylvania Ave., N.W.,
Washington, DC 20520-0001
SupremeCtBriefs@usdoj.gov
Pat Rose, Paul Allen and Kevin
Alexander Howard Cote
Armstrong:
Scheper Kim & Harris LLP
Respondents
601 West Fifth Street, 12th Floor
Los Angeles, CA 90071
acote@scheperkim.com
J. Stephen Tidwell and Barbara Wall: Catherine Mary Agnes Carroll
Respondents
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
catherine.carroll@wilmerhale.com
James Elmer Mitchell and John Jessen: Christopher W. Tompkins
Respondents
Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101
ctompkins@bpmlaw.com

I declare under penalty of perjury under the laws of the State of California and the United
States of America that the above is true and correct.
Executed on March 4, 2021, at Belleair Bluffs, Florida.

_________________
Casey Kasher

